OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID USER
PROFILES FOR APPLICATIONS
HOSTED BY THE NATIONAL
FINANCE CENTER

AUDIT REPORT NO. A-000-14-006-P
August 22, 2014


WASHINGTON, D.C.
This is a summary of our report on the “Audit of USAID User Profiles for Applications Hosted by
the National Finance Center.” In October 2000 USAID entered into an agreement with the U.S.
Department of Agriculture’s National Finance Center (NFC) for NFC to perform payroll and
reporting services. NFC, which is located in New Orleans, Louisiana, serves more than 170
agencies and provides payroll services to more than 650,000 federal employees.

NFC performs the following services for USAID:
 payroll processing
 payroll accounting
 salary payment processing services
 payroll policy support services
 tax reporting services
 reporting services
 shared service coordination with Office of Personnel Management
 information technology services
 information technology security services

To process its payroll, USAID has several applications that electronically submit payroll and
personnel data to NFC’s PowerTerm InterConnect application. They include Human Resource
Connect and WebTA.1 USAID’s Office of Human Resources has staff and contractors who have
access to PowerTerm and the Entry, Processing, Inquiry, and Correction (EPIC) system. Both of
these contain sensitive personally identifiable information, including Social Security numbers
and employee banking information.

The Office of Inspector General’s (OIG’s) Information Technology Audits Division conducted this
audit to determine whether USAID implemented selected controls over security profiles for
users who access applications hosted by NFC on a need-to-know basis in accordance with the
principle of least privilege.2 The audit concluded that USAID had not.

OIG made six recommendations to help USAID strengthen its administration over the Agency’s
access to NFC’s payroll applications. USAID made management decisions on all
recommendations.




1
  Human Resource Connect collects and maintains all personnel data related to the Agency’s employees 

and contractors. WebTA is the Agency’s time and attendance system. 

2
  Access should be restricted to those users who have a specific need to access the information as part of

their assigned duties. 

U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
